SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF SERVICE
I, Nicholas L. Triantos Petitioner, do hereby certify that I
served upon the parties listed below a single copy of the herein Writ
of Certiorari to the Supreme Court of the United States pursuant to
Rule 29 of the Supreme Court, by Via United Parcel Service on this
15th day of February 2021.

Nicholas L. Triantos, Esq.
Pro se
Lynnfield Woods
200 Broadway, Suite 302
Lynnfield, MA 01940
617-828-4848
nltlaw@nltlegal.com
February 15, 2021

Dean J. Wagner, Esq.
Shechtman Halperin Savage, LLP
1080 Main Street
Pawtucket, RI 02860
401-272-1400
For
Bank of America, N. A.
Countrywide Home Loans, Inc.
Peter F. Carr, II, Esq.
Eckert Seamans Cherin & Mellott, LLC
Two International Place, 16th Floor
Boston, MA 02110
617-342-6800
For
Deutsche Bank National Trust Co.
Select Portfolio Servicing, Inc.

Sean A. Cullen, Esq.
Guaetta & Benson, LLC
73 Prince Street, # 208
North Chelmsford, MA 01863
978-250-0999
And
Nancy A. Morency
Gallant & Ervin
1 Olde North Road
Chelmsford, MA 01824
For
Guaetta & Benson LLC
Peter V. Guaetta
Audrey G. Benson
Sarah T, Fitzpatrick

(

